Supreme Court, U.S.
FILED

AUG 1C 2021
OFFICE OF THE CLERK

No.

21-201

In the

Supreme Court of the United States
HUPING HU, MAOXIN WU
Petitioners,
v.
DREW HIRSHFELD, Acting Under Secretary of Commerce
for Intellectual Property and Director of the United States
Patent and Trademark Office, Respondent.

On Petition fora Writ of Certiorari
to the United States Court ofAppeals
for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI

Huping Hu, PhD, JD, Pro Se
Maoxin Wu, MD, PhD, Pro Se
25 Lubber Street
Stony Brook, .NY 11790
(631) 678-1864
hupinghu@quanturnbrain.org
maoxinwu@quantumbrain.org
August 10, 2021:• •

1

QUESTIONS PRESENTED
The patent claims in Petitioners’ four patent
applications are based on their experimental
discoveries related to quantum entanglement while
conducting brain research. These discoveries were
published in peer-reviewed scientific journals.
However, the patent claims were all rejected by the
PTO and the said rejections were then affirmed by
the Federal Circuit under 35 U.S.C. § 101 on the
grounds of operability by applying a “heightened
standard” not found in the statutes nor any case
decided by this Court, and judicial exception of
natural phenomenon in one application. Indeed, this
Court had scarcely considered the fundamental
threshold question of operability under § 101 since
the Patent Act of 1790. The Board stated that “[w]e
have no doubt that if [Hu]’s invention is able to use
quantum entanglement to ... it would be both
groundbreaking and revolutionary” (App. 34a).
Citing Hamlet by Shakespeare in a footnote, the
Federal Circuit stated that “(slhould further
investigation bring peer recognition and verifiable
results, the PTO ... would surely be interested” (App.
24a).
The questions presented are’
1.
Whether the PTO’s varied standards,
buttressed by the decisional law of the lower
reviewing courts, for determining operability under §
101 are biased towards conventional inventions but
against groundbreaking inventions or discoveries,
thus hindering the promotion of the “Progress of
Science and Useful Arts” emanating from the
Intellectual Property Clause of the U.S. Constitution.

11
I

QUESTIONS PRESENTED - Continued
Whether the Federal Circuit erred by
applying a “heightened standard” of operability
under § 101, “typically measured by reproducibility
of results”, when claimed inventions or discoveries
are considered to contain concepts straining scientific
principles, thus effectively raising the standard of
proof on operability from “more likely than not true”
to “beyond a reasonable doubt” or “as a matter of
statistical certainty.”
2.

Whether the decisional law of the
reviewing courts, creating judicial exceptions to
patent eligibility under § 101, has no statuary basis
and thus inapplicable in light of this Court’s recent
decision in Henry Schein, Inc. v. Archer & White
Sales, Inc. 139 S. Ct. 524 (2019).
3.

4.
Whether the PTO personnel and the
Federal Circuit can substitute their common sense
and common knowledge for the specialized
knowledge and expertise of a person having ordinary
skill in the art (“PHOSITA”) in determining
operability under § 101.

Ill

PARTIES TO THE PROCEEDING
The parties to this proceeding are those listed on the
cover* (l) Petitioners, Huping Hu and Maoxin Wu,
and (2) Respondent, Drew Hirshfeld, Acting Under
Secretary of Commerce for Intellectual Property and
Director of the United States Patent and Trademark
Office.

IV

TABLE OF CONTENTS
QUESTIONS PRESENTED...........

1

PARTIES TO THE PROCEEDING

111

TABLE OF AUTHORITIES

Vlll

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED.......................

2

INTRODUCTION

3

STATEMENT OF THE CASE

8

I. The Claimed Inventions

8

(A) The ‘996 Application

10

(B) The ‘631 Application

14

(C) The ‘830 Application

16

(D) The ‘739 Application

18

II. The PTO Examinations

20

III. The Board Proceedings

25

IV. The Federal Circuit’s Opinion

28

V

REASONS FOR GRANTING THE PETITION..... 30
The varied standards of the PTO,
buttressed by the decisional laws of the
lower reviewing courts, for determining
operability under § 101 are biased
against groundbreaking inventions or
discoveries, thus hindering the promotion
of the “Progress of Science and Useful
Arts” emanating from the IP Clause........

30

II. The Federal Circuit’s application of a
“heightened standard” of operability
under § 101, “typically measured by
reproducibility of results” through
independent verification and peer
recognitions
effectively raises the
standard of proof on operability from
“more likely than not true” to “beyond a
reasonable doubt” or “as a matter of
statistical certainty”....................................

36

III. The decisional law of the reviewing
courts, creating judicial exceptions to
patent eligibility under § 101, has no
statuary basis and is inapplicable in light
of this Court’s recent decision in Henry
Schein, Inc. v. Archer & White Sales, Inc.
139 S. Ct. 524 (2019)..................................

40

IV. The PTO personnel and Federal Circuit
should not substitute common sense and
common knowledge for the specialized
knowledge and expertise of a PHOSITA
in determining operability under § 101....

44

CONCLUSION

47

I.

VI

APPENDICES TO THE PETITION
FOR A WRIT OF CERTIORARI
Table of Contents
Appendix A- Opinion of the United States
Court of Appeals for the Federal Circuit,
Dated March 17, 2021.................................

la

Appendix B- Decision of the Patent Trial and
Appeal Board in the 11/944,631 Patent
Application, Dated May 16, 2019..............

25a

Appendix C: Decision of the Patent Trial and
Appeal Board in the 13/449,739 Patent
Application, Dated May 16, 2019..............

39a

Appendix D: Decision of the Patent Trial and
Appeal Board in the 13/492,830 Patent
Application, Dated May 16, 2019..............

60a

Appendix E- Decision of the Patent Trial and
Appeal Board in the 11/670,996 Patent
Application, Dated May 16, 2019..............

84a

Appendix F* Relevant Constitutional and
Statutory Provisions.............................
Appendix G: Relevant Parts of the Manual of
Patent Examining Procedure (MPEP).....

98a

100a

Appendix H: The Claim List of the 11/944,631
Patent Application (C.A.J.A. 79-85)............ 115a
Appendix P The Claim List of the 13/449,739
Patent Application (C.A.J.A. 86~88).........

124a

Vll

Appendix J' The Claim List of the 13/492,830
Patent Application (C.A.J.A. 89-92)..........

128a

Appendix IC The Claim List of the 11/670,996
Patent Application List (C.A.J.A. 68_78)........132a
Appendix L- Specification and Drawings of
the 11/670,996 Patent Application
(C.A.J.A. 5196-5237).................................

145a

Appendix M- Excerpts from the Specification
and Drawings of the 13/492,830 Patent
Application (C.A.J.A. 3538-3619).............

189a

Appendix N: Specification and Drawings of
the 11/944,631 Patent Application
(C.A.J.A. 7274-7343).................................

220a

Appendix O- Appeal Brief to the United States
Court of Appeals for the Federal Circuit.... 278a
Appendix P- Excerpts from the Appendices to
the Appeal Briefs to the Board...................

352a

Appendix Q: Excerpts from the Appeal Brief
to the Board in the 11/670,996 Patent
Application (C.A.J.A 6632-6636)...............

367a

Vlll

TABLE OF AUTHORITIES
Cases
Alice Corp. v. CLS Bank International,
573 U.S. 208 (2014).......................

28

Allentown Mack Sales & Serv., Inc. v. NLRB,
522 U.S. 359 (1998)..................................

44

Bilski v. Kappos,
130 S. Ct. 3218 (2010)

30, 40

Brooktree Corp. v. Advanced Micro Devices, Inc.
977 F.2d 1555 (Fed. Cir. 1992)...................

37

In re Corkill,
111 F.2d 1496 (Fed. Cir. 1985)

37

E.I. du PontDe Nemours and Co. v. Berkley
and Co., 620 F.2d 1247 (8th Cir. 1980)

37

Eldred v. Ashcroft,
537 U.S. 186 (2003)

4, 30

In re Fisher,
421 F.3d 1365 (Fed. Cir. 2005)

44

In re Gartside,
203 F. 3d 1314 (Fed. Cir. 2000)

44

Henry Schein, Inc. v. Archer and White Sales, Inc.,
139 S. Ct. 524 (2019)
6, 40, 41, 43
Herman v. Huddleston,
459 U.S. 375 (1983)

36, 37

IX

Marbury v. Madison,
5 U.S. 137 (1803)

43

Mitchell v. Tilghman,
86 U.S. 287 (1873)

5

Motion Picture Patents Co. v. Universal Film
Mfg. Co., 243 U.S. 502 (1917)
3, 30, 31
Newman v. Quigg,
877 F.2d 1575 (Fed. Cir. 1989)

29

In re Oetiker,
977 F.2d 1443 (Fed. Cir. 1992)

37

Parker v. Flook,
437 U.S. 584 (1978)

41

Process Control Corp. v. HydReclaim Corp.,
190 F.3d 1350 (Fed. Cir. 1999)............

29

In re Sang-Su Lee,
277 F.3d 1338 (Fed. Cir. 2002)

45

In re Swartz;
50 F. Appx 422 (Fed. Cir. 2002)

29

In re Warner;
379 F. 2d 1011 (C.C.P.A. 1967)

46

United States Constitution
U.S. CONST. Art. I, § 8, Cl. 8

passim

X

Statutes

28 U.S.C. § 1254

1

35 U.S.C. § 101

passim

35 U.S.C. § 112

20, 22, 26

35 U.S.C. § 132

46

5 U.S.C. § 706

2, 46

Other Authorities
Manual of Patent Examining Procedure
(“MPEP”) §2107 ...........................

passim

Sherry Knowles and Anthony Prosser,
Unconstitutional Application of 35 U.S.C.
§ 101 by the U.S. Supreme Court, 18 J.
MARSHALL REV. INTELL. PROP. L.
42, 43
144 (2018)
Sean B. Seymore, Patently Impossible, 64
Vanderbilt Law Review 1489 (2011) .... passim
Sean B. Seymore, Research Patent, 74
Vanderbilt Law Review 143 (2021)

4, 31

1
PETITION FOR A WRIT OF CERTIORARI
Huping Hu and Maoxin Wu respectfully
petition for a writ of certiorari to review the decision
of the Federal Circuit in this case.
OPINIONS BELOW
The nonprecedential opinion of the Federal
Circuit (App. la_24a) was issued in the following four
related appeals consolidated for briefing and
argument by the said court*
CAFC Case No.
2019-2104
2019*2105
2019-2106
2019-2107

Board Case No.
2018-007211
2018-003398
2018-003401
2018-003120

Pat. App. Serial No.
11/944,631
13/449,739
13/492,830
11/670,996

The opinion is available at In re Huping Hu, 2021
U.S. App. LEXIS 7776 (Fed. Cir. Mar. 17, 2021).
The four written decisions of the Patent Trial
and Appeal Board (“Board”) of the Patent and
Trademark Office (“PTO”) are reproduced at App.
25a_97a.
JURISDICTION
The decision of the Federal Circuit was
entered on March 17, 2021. App. la-24a. No petition
for rehearing was filed. In the Order of July 19, 2021
by this Court, the time within which to file any
petition for a writ of certiorari due before that date
remains extended to 150 days. Petitioners invoke the
jurisdiction of this Court under 28 U.S.C. § 1254(l).

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The pertinent constitutional and statutory
provisions are as follows*
U.S. Constitution, Article I, Section 8
Congress shall have power...[t]o promote the
Progress of Science and useful Arts, by
securing ... to Authors and Inventors the
exclusive Right to their respective Writings
and Discoveries!.]
35 U.S.C. § 101 • Inventions patentable
Whoever invents or discovers any new and
useful process, machine, manufacture, or
composition of matter, or any new and useful
improvement thereof, may obtain a patent ....
5 U.S.C. § 706 • Scope of review
...the reviewing court shall decide all
relevant questions of law, interpret
constitutional and statutory provisions, and
determine the meaning or applicability of the
terms of an agency action. The reviewing
court shall—
(2) hold unlawful and set aside agency
action, findings, and conclusions found
to be—

3

(A) arbitrary, capricious, an abuse of
discretion, or otherwise not in
accordance with law;
(B) contrary to constitutional right,
power, privilege, or immunity;
INTRODUCTION
Article I, Section 8, of the United States
Constitution states that the Congress shall have
power “Wo promote the Progress of Science and
useful Arts, by securing for limited Times to Authors
and Inventors the exclusive Right to their respective
Writings and Discoveries” (“IP Clause”).
In exercising that power, Congress enacted the
Patent Act. § 101 of the Act states that “[w]hoever
invents or discovers any new and useful process,
machine, manufacture, or composition of matter...,
may obtain a patent therefor, subject to the
conditions and requirements of this title.”
This Court observed that “in the patent
context,...the ultimate purpose of promoting the
‘Progress of Science and useful Arts’” should be
served by patent laws. Eldred v. Ashcroft, 537 U.S.
186, 223 (2003). This Court also noted that "the
primary purpose of our patent laws ... is 'to promote
the progress of science and useful arts' ". Motion
Picture Patents Co. v. Universal Film Mfg. Co243
U.S. 502, 511 (1917).
Therefore, the promotion of the “Progress of
Science and Useful Arts” emanating from the IP
Clause is the overarching goal of the patent system.

4
See, Sean B. Seymore, Patently Impossible, 64
Vanderbilt Law Review 1489, 1540 (2011).
This case raises the crucial question of
whether the PTO’s varied standards, buttressed by
the decisional law of the lower reviewing courts, for
determining operability under § 101 are biased
towards conventional inventions but against
groundbreaking inventions or discoveries, thus
hindering the promotion of the “Progress of Science
and Useful Arts” emanating from the IP Clause.
Prior to the mid-20th century, a de minimis
utility standard applied to almost all inventions.
Sean B. Seymore, The Research Patent, 74
Vanderbilt Law Review 143, 150 (2021). However,
since that time, the utility threshold is technologyspecific—de minimis for some inventions but more
stringent for others. See §2107 (App. 100a_114a) in
PTO’s Manual of Patent Examining Procedure
(“MPEP”); Id. at 145. “For example, mechanical and
electrical inventions almost never face utility
hurdles, [b]ut the opposite is true for chemical
inventions...” (footnotes omitted). Id.
In this case, the Federal Circuit held that
“[t]he PTO, as the nation’s guardian of technologic
invention, must be receptive to unusual concepts, for
the core of invention is unobviousness,” but applied a
“heightened standard” of operability under § 101,
“typically measured by reproducibility of results”,
because the Petitioners’ claimed inventions and
discoveries are considered to contain concepts which
strain scientific principles. App. 23a-24a. In so doing,
the Federal Circuit has effectively raised the
standard of proof on operability under § 101 in this

5
case from “more likely than not true” in MPEP §2107
to “beyond a reasonable doubt” or “as a matter of
statistical
certainty”
through
independent
verification and peer recognitions.
Surprisingly, this Court had scarcely
considered the fundamental threshold question of
operability under § 101 since the Patent Act of 17901.
This situation might have been due to the reason
that the patent applicants had not mount a
meaningful challenge in this Court2. But not being
meaningful challenged in or reviewed by this Court
does not means that the threshold question of
operability under § 101 is unimportant or the actions
of the PTO as the gatekeeper and the decisional law
of the lower reviewing courts have been correct, just
or constitutional since the Patent Act of 1790,
especially, in this age of rapidly advancing sciences
and technologies.
In contrast, this Court has been active
regarding judicial exceptions to patentability under §
1013. This Court recently also held that there is no
1 This Court mentioned in Mitchell v. Tilghman, a case later
being overruled, the operability requirement. 86 U.S. (19 Wall.)
287, 396 (1873) (“[a unpatentable invention] is not capable of
being used to effect the object proposed", citing Curtis on
Patents, 4th edition, § 449).
2 See, e.g., cert, denied in No. 02*1565 and No. 18*961 filed by
Petitioner, Mitchell R. Swartz, pro se.
3 At the request of four Senators, the PTO “is undertaking a
study on the current state of patent eligibility jurisprudence ...
and how [it] has impacted investment and innovation,
particularly in critical technologies like quantum computing...”
httpsV/www.federalregister.gov/documents/2021/07/09/202114628/patent-eligibility-jurisprudence-study

6
statutory authority for judicial exceptions under the
Federal Arbitration Act. Henry Schein, Inc. v. Archer
& White Sales, Inc. 139 S. Ct. 524, 528 (2019) (“The
Act does not contain a ‘wholly groundless’ exception,
and we are not at liberty to rewrite the statute
passed by Congress and signed by the President”).
In this case, the Federal Circuit affirmed
without discussion the Board’s finding that the
claimed invention for an apparatus in the ‘739
application is directed to the judicial exception of a
natural phenomenon.
Petitioners respectfully submit that the
decisional law of the reviewing courts, creating
judicial exceptions to patent eligibility under § 101,
also has no statuary basis and thus inapplicable in
light of this Court’s decision in Id..
This case also raises the question of whether
the PTO personnel and the Federal Circuit can
substitute common sense and common knowledge for
the specialized knowledge and expertise of a person
having ordinary skill in the art (“PHOSITA”) in
determining operability under § 101.
Petitioners respectfully submit that the record
in this case shows that the concepts allegedly
straining scientific principles do not actually exist
from the standpoint of a PHOSITA but are mere
opinions of the PTO personnel and the Federal
Circuit from their non-expert standpoints.
However, neither the PTO personnel nor the
reviewing courts should add additional burdens on
the patent applicants that are not sanctioned by the

7
Congress in its statutory scheme; nor should they
assume that they are the experts in a particular art
and their own views can substitute those of a
PHOSITA. Sadly, this is what happened in this case.
The severe and irreparable harm is that,
instead of compensating the Petitioners and many
other discoverers and pioneers similarly situated
with patents, their discoveries made with toils, sweat
and financial drains (and with themselves as “guinea
pigs”) are thrown out.
Even more consequential is the severe and
irreparable harm to the promotion of “Progress of
Science and useful Arts” and American innovation
and technological competitiveness on the world
stage, if the situation continues, for investment is the
fuel in the engine propelling the aforesaid Progress
and innovation but no one would put fuel in the
engine if it just runs in vain.
This state of affairs is contrary to the
constitutional purpose of the IP Clause, and unjustly
denies Petitioners’ rights and those of other
discoverers and pioneers similarly situated for
patents. Only this Court can reverse this sad and
depressing situation short of congressional action.
This case provides this Court the rare
opportunity to consider the fundamental threshold
question of operability under § 101 since the Patent
Act of 1790 and reverse the biased and/or
unconstitutional aspects of § 101 jurisprudence
which hinder the promotion of the “Progress of
Science and Useful Arts” emanating from the IP
Clause and unjustly deny patents to inventors and

8
discoverers for their pioneering, groundbreaking or
revolutionary inventions and discoveries.
STATEMENT OF THE CASE
I. The Claimed Inventions
Petitioners’ inventions and discoveries are in
the fields of brain research and quantum
entanglement research and development. R&D in
these fields are crucial in the coming quantum
revolution following the industrial, technological and
digital revolutions.
Petitioners are U.S. Citizens. Hu is a trained
experimental biophysicist with a Ph.D. in biophysics
from University of Illinois at Champaign-Urbana,
and M.S. in biophysics and B.S. in chemistry from
universities in China. C.A.J.A. 6671. The subject
inventions are scientific discoveries made by Hu in
collaboration with Wu while studying brain functions
and nature of quantum entanglement. App. 147a.
The Petitioners had published a spin-mediated
consciousness theory in which quantum spins carried
by nuclei and/or electrons inside the brain play
important roles. App. 147a. Hu thought that this
theory might be experimentally tested by first
attempting to quantum-entangle nuclear/electronic
spins inside the brain with those of an external
substance through interactions with the photons of
magnetic pulse and then observing the resulting
brain effects such attempt might produce. Hu further
thought that the said experiment would work if
quantum entanglement means genuine inter­
connectedness and inseparableness of once interacting

9
quantum entities and is able to influence biological
and/or chemical processes. Hu then carried out
various experiments in collaboration with Wu. App.
147a.
At the time of Petitioners’ experiments, many
experiments by other scientists had already shown
that quantum entanglement is physically real;
indeed, it is ubiquitous in the microscopic world and
manifests itself macroscopically under some
circumstances. App. 145a-146a. However, the
essence and implications of quantum entanglement
were hotly debated and largely unknown. App. 146a.
The subject discoveries and inventions were
based on Hu’s realizations that (App 147a- 148a):
(l) quantum entanglement means genuine
interconnectedness and inseparableness
of once interacting quantum entities and
can be directly sensed and utilized by the
entangled quantum entities;
(2) it can persist in biological, chemical and
other systems at room and higher
temperatures
despite
of quantum
decoherence; and
(3) it can influence chemical and biochemical
reactions, other physical processes and
micro- and macroscopic properties of all
forms of matters.
Therefore, it can be harnessed and developed into
useful technologies to serve the mankind in many
areas such as health, medicine and even recreation

10
besides the already emerging fields of quantum
computation. App. 148a.
Hu’s
discoveries
and
inventions
in
collaboration with Wu were disclosed in five patent
applications. Four of them are involved in this case:
11/670,996 (“the ‘996 application”),
filed 02/04/2007, App 145a-188a;
11/944,631 (“the ‘631 application”),
filed 11/25/2007, App 220a-277a;
13/449,739 (“the ‘739 application”),
filed 04/18/2012, C.A.J.A. 2001-2048,
which is a divisional application of the
‘996 application; and
13/492,830 (“the ‘830 application”) with
Petitioner, Wu, filed 06/09/2012, App.
189a-219a, which is a continuation-inpart application of the ‘996 application.
These discoveries were published in five peerreviewed scientific articles. C.A.J.A. 4603-4654. The
first pages of these five articles are available at App.
352a-366a .
(A) The ‘996 Application
The claimed invention in the ‘996 application
relates
to
method
of producing
quantum
entanglement, non-local effects of substances
through quantum entanglement on responsive
targets such as biological and chemical systems, to
apparatus for such productions, and to method of

11
using the non-local effects for beneficial purposes.
App. 145a.
Petitioners have two published scientific
articles (App. 352a_357a, C.A.J.A. 6674-6695) and
one Chinese patent by Hu on the subject
invention/discovery (C.A.J.A. 6876).
The specification (App. al45-182a) describes
the invention in details. Drawings (App. 182a-188a)
are included with the application which provide
schematic views of the method and apparatus for
producing quantum entanglement and non-local
effects of substances. For example, Paragraphs 42-45
of the specification (App. 156a-157a) describe in
details of how to setup and use one particular
embodiment shown in Fig. 1A (App. 182a) and how
quantum entanglement is generated and non-local
effects of substances are produced.

no

112

F/G. JA

12
The specification further goes on to describe in
Paragraphs 72-108 of the specification (App. 1165a182a) various experimental studies and results
obtained with the apparatus and methods disclosed.
To verify that the biological and/or chemical
effects experienced by the test subjects were due to
quantum entanglement between the quantum
entities inside the test subjects and those in the
substances under study, four sets of experiments
were described and carried out to obtain verification.
Paragraphs 78-82 (App. 168a-169a), 90-94 (App.
174a-177a).
Representative Claim 1 in the ‘996 application
is listed below (App. 132a-133a)*
A method of producing a plurality of
quantum entanglements between a first
plurality of quantum entities in a first target
and a second plurality of quantum entities in
a second target, a first non-local effect of said
second target on said first target through
said plurality of quantum entanglements
and/or a second non-local effect of said first
target on said second target through said
plurality of quantum entanglements which
comprises the steps ofi
selecting said first target which
comprises a first chemical substance, waterbased medium, human or animal;
selecting said second target which
comprises a second chemical substance,
water-based medium, human or animal;

13
providing a photon or magnetic pulse
generating source which emits a plurality of
photons or magnetic pulses as quantum
entanglement generating members when
said source operates;
disposing said first target between said
source and said second target or said second
target between said source and said first
target; and
driving said source to emit said photons
or magnetic pulses which interact with said
first plurality of quantum entities in said
first target and said second plurality of
quantum entities in said second target;
whereby said plurality of quantum
entanglements ... is generated through said
interactions of said photons or magnetic
pulses ... with said first plurality of quantum
entities ... and said second plurality of
quantum entities ...; and said first non-local
effect ..., comprising a first non-local effect of
said second target on a first physical,
chemical or biological property or process of
said first target, and/or said second non-local
effect ..., comprising a second non-local effect
of said first target on a second physical,
chemical or biological property or process of
said second target, are generated through
said plurality of quantum entanglements.

14
(B) The ‘631 Application
The claimed invention in the ‘631 application
relates to method of producing non*local physical,
chemical and biological effects on physical, chemical
and/or biological systems through quantum
entanglement mediated processes, to apparatus for
such productions, and to method of using the non­
local effects for beneficial purposes. App. 220a.
Petitioners have two published scientific
articles (App. 358a-363a, C.A.J.A. 1378-1401) and
one U.K. patent by Hu on the subject invention and
discovery (C.A.J.A. 1402-1459).
The specification (App. 220a-268a) describes
the invention in details. Drawings (App 269a*277a)
are included with the application which provide
schematic views of the method and apparatus for
producing non-local physical, chemical and biological
effects. Paragraph 46 (App. 232a) described how
target substance and originating substance can be
quantum-entangled through one of several quantumentanglement processes discovered and published in
Petitioners’ two scientific articles after peer review
(C.A.J.A. 6674-6695). Paragraphs 47-50 (App. 232a234a) describe in details of how to setup and use one
particular embodiment shown in FIG. 1 and FIG. 2
(App. 269a) and how non-local physical, chemical and
biological effects are produced.
The specification further goes on to describe in
Paragraphs 48-109 (App. 233a268a) various
experimental studies and results obtained with the
apparatus and methods disclosed.

15
100

1,3-n
m

°C=D

<7

r~ 190

121
122

112

\___|\
130

110
LocalknA

Location B

FIG.1

Representative Claim 1 in the ‘631 application
is listed below (App. 115a-116a)A method of producing a non-local effect
in a target substance through manipulating
an originating substance and detecting said
non-local effect which comprises the steps of
selecting a substance which comprises
said target substance and said originating
substance;
generating a plurality of quantum
entanglements within a plurality of quantum
entities in said substance by irradiating said
substance with magnetic pulse, laser light or
microwave, or letting said substance sit for at
least thirty days;
separating said substance into said
target substance and said originating
substance;

16
positioning said target substance at a
first location in a first stable environment
and said originating substance at a second
location in a second stable environment;
cooling, heating or adding a third
substance to said originating substance; and
detecting with a high-precision instrument a
change in weight, temperature and/or pH
value of said target substance;
whereby said non-local effect is produced
through a non-local process mediated by said
quantum entanglements and said non-local
effect is said change in weight, temperature
and/or pH value of said target substance.

(C) The *830 Application
The ‘830 application is a continuation-in-part
application of the ‘966 application. App. 189a. The
claimed invention is further related to method of
objectively and quantitatively detecting and
measuring non-local effect in biological systems, and
to apparatus for such detection and measurement.
App. 189a.
The Petitioners has one published scientific
article on the subject invention. App 364-366a,
C.A.J.A. 4649-4654.
The specification describes the invention in
details. The new parts not in the ‘996 application are
Paragraphs 8, 16, 43-48, 84-87, 90, 116-125 and 128
of the specification (App. 189a-208a, C.A.J.A. 3538-

17
3619). Drawings were included with the application
which provide schematic views of the method and
apparatus for producing quantum entanglement and
producing and detecting non-local effects of
substances. New drawings not in the ‘996 application
are FIG.7-FIG.10B (App. 209a-219a). For example,
Paragraphs 84*85 (App. 192a) describe how to setup
and use one particular embodiment shown in FIG. 7
and FIG.8A and how quantum entanglement is
generated and non-local effects of substances are
produced and detected.
The new experimental results are describe in
Paragraphs 116-125 (App. 193a-208a) and FIG.9AFIG.10B (App. 209a-219a).

n

n
FIG. 7

181

182

\\ ni

182

120

18

500

202

■)

B
201

\

PIG8A

Representative Claim 5 is available at App.
128a-130a.
(D) The ‘739 Application
The ‘739 application is a divisional application
of the ‘996 application. C.A.J.A. 2001-2048.
Representative Claim 1 in the ‘739 application
is listed below (App. 124a-125a)An apparatus for producing a plurality of
quantum entanglements between a first
plurality of quantum entities in a chemical
substance and a second plurality of quantum
entities in a human or animal, a non-local
chemical effect of said human or animal on
said chemical substance through said

19
plurality of quantum entanglements and/or a
non-local biological effect of said chemical
substance on said human or animal through
said plurality of quantum entanglements
which comprisesa quantum-entanglement generating
source which emits a plurality of quantumentangling photons or magnetic pulses when
said source operates!
a first container for holding said chemical
substance disposed next to said source! and
said chemical
container!

substance

in

said

such that when said first container is
filled with ... is disposed next to said human
or animal, and said source operates, said
photons or magnetic pulses interact with said
first plurality of quantum entities ... and said
second plurality of quantum entities ...
generating said plurality of quantum
entanglements, said non-local chemical effect
... which comprises an effect of said human
or animal on a chemical property or process
of said chemical substance and/or said
biological non-local effect ... which comprises
an effect of said chemical substance on a
biological property or process of said human
or animal.

20
II. The PTO Examinations
All four applications were examined under the
pre*AIA first to invent provisions. App. 285a.
The ‘996 and ‘830 Applications
In the ‘996 application, all claims (App. 132a144a) were rejected because the claimed invention
allegedly lacks patentable utility (inoperable) under
§ 101 and fails under § 112. C.A.J.A. 6535-6553.
In the ‘830 application, all claims (App. 128a131a) were rejected for the same alleged reasons
above. C.A.J.A. 4473-4490.
The examiner acknowledged that “the concept
of quantum entanglement per se is not being
disputed,” but asserted that “rather the method
claimed by applicant as being capable of generating
quantum entanglements between first and second
targets including humans and animals” is disputed.
C.A.J.A. 6549, 4489.
The rationales behind the examiner’s
rejections under § 101 in both applications were that:
(l) “[I]f substance is not physically administered to
the body, the chemical and physical reactions and
interactions required would not take place”; and (2)
Even if Hu’ experimental data were true, they were
not necessary the results of quantum entanglement”
because of the alleged quantum decoherence or other
possible interpretation. C.A.J.A. 6540-6543, 44794482.

21
To overcome the examiner’s repeated
rejections based on her common sense and common
knowledge (not the specialized knowledge and
expertise of a PHOSITA), Hu produced Petitioners’
five scientific publications after peer-reviews (App.
352-366) and two foreign patents on the claimed
discoveries, and twenty-five scientific articles of
other scientists (App. 367-388). C.A.J.A. 6667-7224,
4597-5106.
Hu argued repeatedly why Hu’s claimed
inventions based on his realizations are clearly
supported by the disclosures in the specifications
including the experimental data and the evidence
produced, thus they are credible and operative, and
why the examiner’s rationales were wrong from the
standpoint of a PHOSITA. C.A.J.A. 6480 6531, 44224469.
Hu’s rebuttals on examiner’s rationales above
included the article “Living in a Quantum World” by
a renowned expert in quantum entanglement in
which he reported that “quantum mechanics is not
just about teeny particles!) i]t applies to things of all
sizes: birds, plants, maybe even people.” C.A.J.A.
6771, 4726. Hu pointed out that “it is well
established scientific principle that quantum
mechanics is the foundation of chemistry,
biochemistry, biology and classical physics.... [t]hus,
in principle quantum entanglement should play a
role in chemistry and the rest is to do experiments as
the [Petitioners] did and disclosed....” C.A.J.A. 6506,
4447.
Hu’s rebuttals further included experimental
designs and data in the specifications verifying that

22
the observed effect were due to quantum
entanglement
(C.A.J.A.
6515,
4458)
and
experimental results of other scientists in the cited
articles demonstrating that EEG, pH value and
photo emission rates could be changed non-locally
through processes associated with quantumentanglement (App. 367-388, C.A.J.A. 6787-6790,
6955-6963, 6946-6954, 7042-7052).
Hu’s rebuttals on examiner’s rationales also
included experimental results of other scientists in
the
cited
articles
(App.
367-388)
clearly
demonstrating that decoherence-free space exists
and quantum entanglement of nuclear spins can last
up to hours in room or higher temperatures. C.A.J.A.
6480-6531, 4422-4469.
Hu submitted that the Petitioners provided
much more than sufficient evidence such that, when
“considered as a whole, it leads a [PHOSITA] to
conclude that the asserted utility is more likely than
not true” (citing the standard of proof in MPEP
§2107). C.A.J.A. 6482, 4423.
The ‘631 Application
In the ‘631 application, all claims (App. 115a123a) were rejected because the claimed invention
was allegedly inoperable under § 101 and not
enabling under § 112. C.A.J.A. 1201.-1211.
The examiner did not deny that quantum
entanglement is real (and even cited the article
“Living in a Quantum World” in the initial Office
Action) but doubted, based on his common sense and
common knowledge, the claimed inventions being

23

capable of generating nonlocal physical effect
mediated by quantum entanglement. C.A.J.A. 12011207.
The rationales behind the examiner’s
rejections under § 101 were that: (l) “[The physical
properties] of an isolated target substance (water)
can be changed ('whereby said non-local effect is
produced through a non-local process mediated by
said quantum entanglements and said non-local
effect is said change in [said physical properties]') by
manipulating a separate removed originating
substance (water) violate! conservation laws or is
contrary to common knowledge of chemistry]”
(quoting Hu in ' '); and (2) Quantum entanglement
was observed only momentarily in highly controlled
experiment but Hu’s experiments were not highly
controlled. C.A.J.A. 1201-1211.
As in the ‘996 and ‘830 Applications, to
overcome the examiner’s repeated rejections based
on his common sense and common knowledge (not
the specialized knowledge and expertise of a
PHOSITA), Hu produced, as supporting evidence,
Petitioners’ scientific publications and foreign patent
on the claimed discoveries, and scientific articles
written by other scientists. C.A.J.A. 1108-1147.
Hu pointed out that the examiner’s rationales
were wrong because quantum-entangled entities in
the target substance and originating substance at
two different locations are not separate or isolated
quantum-mechanically. Thus, the observed nonlocal
effect does not violate conservation laws or chemistry
from the standpoint of a PHOSITA. C.A.J.A. 11141148.

24
As in the ‘996 and ‘830 Applications, Hu
argued why the claimed invention based on his
realizations are clearly supported by the disclosures
in the specifications and the evidence produced, thus
they are credible and operative, and why the
examiner’s rationales were wrong from the
standpoint of a PHOSITA. C.A.J.A. 1108-1147.
Hu submitted that he provided much more
than sufficient evidence such that, when “considered
as a whole, it leads a [PHOSITA] to conclude that the
asserted utility is more likely than not true” (citing
the standard of proof in MPEP §2107). C.A.J.A. 1113.
The ‘739 Application
In the ‘739 application, all claims (App. 124a127a) were rejected because the claimed invention
allegedly “[did] not include additional elements that
are sufficient to amount to significantly more than
the judicial exception” to § 101 (C.A.J.A. 2613) and
fails for other alleged reasons.
Hu argued at length (C.A.J.A. 2832-2850) to
the examiner that he has provided much more than
sufficient evidence such that “the record as a whole
suggests that it is more likely than not that the
claimed invention would be considered significantly
more than...natural phenomenon” (C.A.J.A. 2850).

25
in. The Board Proceedings
Three of the Board’s four Decisions
acknowledged that “[w]e have no doubt that if
[PetitionerTs invention is able to use quantum
entanglement to...it would be groundbreaking and
revolutionary.” App. 34a, 72a, 92a.
However, the Board stated that- “due to the
absence of any known scientific principles explaining
how Appellant’s invention could possibly operate in
this matter...”, “we are not apprised of error in the
Examiner’s position concerning lack of utility under
§101....” App. 34a, 72a, 92a.
The Board’s above statement (along with
others)
was its non-expert view not that of a
PHOSITA. It is erroneous, unsupported by the
evidence of record, and, indeed, contrary to the
evidence of record.
The ‘996, ‘830 and ‘631 applications
In the Appeal Briefs to the Board (C.A.J.A.
6586-6655, 4523-4590,
1268-1364), Petitioners
expressly directed the Board to the facts, evidence
and arguments made to the two examiners during
the lengthy prosecutions.
The examiners’ Answers (C.A.J.A. 7228-7237,
5110-5121, 1906-1945) maintained the same alleged
reasons and arguments for rejections of the claimed
inventions as those in the Final Office Actions
(C.A.J.A. 6535-6553, 4473-4490, 1201-1211).

26
The examiner in the ‘996 and ‘830 applications
admitted in her Answers that “the principle of
quantum mechanics is not disputed nor whether
macroscopic systems may be entangled” and
“quantum mechanics and interactions, even within
macroscopic objects, is not being disputed.” C.A.J.A.
7229-7230, 5115. The examiner in the ‘630
application did not deny that quantum entanglement
is physically real.
Therefore, Hu pointed out again in his Reply
Briefs (C.A.J.A. 7238-7257, 5122-4143, 1949-1951)
that “whether ...nonlocal effect through ... quantum
entanglements can be produced within macroscopic
systems is a mainly matter of insights and
experimentation ....” C.A.J.A. 7251, 5136, 1949.
Despite all of the facts, evidence and
arguments presented by the Petitioners, the Board
affirmed the examiners’ rejections under §101 and
§112. App. 97a, 83a, 38a.
The Board stated that “the fundamental issue
is not whether Appellant has explained how the
claimed invention works!,] Mather, the requirements
of utility and enablement consider whether
Appellant’s invention works as claimed.” App. 92a
fn3, 72a-73a fn6, 34a-35a fn2.
However, Petitioners did disclose in the
experimental section of the specifications (e.g.y App.
168a-169a, 174a-177a) that the invention does work
as claimed and, further, Petitioners’ five scientific
publications (App. 352-366) after peer-reviews and
two foreign patents on the claimed discoveries, and
twenty-five scientific articles of other scientists (App.

27
367-388) strongly support Petitioners’ inventions and
discoveries do work as claimed.
The Board stated that “[i]f the principles
governing the operation...were so readily amenable
to understanding we see no reason to omit an
explanation of them ...” App. 92a fn3, 72a fn6, 34_35
fn2. This statement was the Board’s non-expert view.
A PHOSITA would know and understand that(l) How to generate quantum entanglement was
known in the prior arts (App. 145a-146a, 220a-221a);
and (2) How to utilize quantum entanglement to
produce nonlocal effects was discovered/invented by
Hu based on his realizations (App. 147a-148a, 222a223a) and was amply and cogently explained in the
specifications (See, e,g., App. 168a-169a) and verified
by test data in the experimental section of the
specifications (See e.g,, App. App. 174a-177a).
The Board asserted that "..heart rate changes
... even if present...do not necessarily demonstrate a
... pharmaceutical interaction....the various articles
cited by Appellant are either generic...[or] from
sources regarded as having no scientific value...."
App. 93a, 73a.
However, the standard proof of patentable
utility is “more likely than not” in MPEP §2017, not
“necessarily”. Articles by other scientists do provide
direct support. See, e.g., Articles 12, 13, 17 and 20 in
C.A.J.A. 6946-6954, 6955-6963, 7003-7021, 70427052 respectively. The Board’s statement that
“sources [are] regarded as having no scientific value”
is not that of a PHOSITA but its own opinion.

28
The ‘739 application
The Board concluded that “Examiner’s
analysis ... is consistent with PTO guidance [in
MPEP § 2106] ...[;] [accordingly, we adopt the
Examiner’s position and sustain the § 101 rejection
on the basis” of the judicial exception of a natural
phenomenon. App. a55'a58. The Board cited Alice
Corp. v. CLS Bank International, 573 U.S. 208, 216
(2014) (“Laws of nature, natural phenomena, and
abstract ideas” are not patentable.) App. a55.

IV. The Federal Circuit’s Opinion
In their Appeal Brief (App. 278a-351a),
Petitioners showed that it was not possible for the
examiners and the Board to conduct a valid
patentable utility analysis (and other analyses) of
the claimed inventions in the ‘996, ‘830 and ‘631
applications unless they first determined the four
foundational questions stated in the Appeal Brief
(App 331a-332a).
Unfortunately, none of that happened, neither
the examiners nor the Board acknowledge the
necessity to look at the Hu’s realizations the way a
PHOSITA would. Similarly, at no time did the PTO
acknowledge that it even had any evidence at all of
why Hu’s realizations were wrong, who a PHOSITA
was, what were the qualifications of a PHOSITA.
Instead, the PTO’s entire analyses and bases for
rejections of all claims appear to be only from the
common sense and common knowledge of the PTO
employees, reading the specifications, the claims, the

29
prior
arts
and
the
voluminous
evidence
independently from the context of a PHOSITA.
that
the
showed
Petitioners
further
substantial evidence standard of review dictates the
opposite result and listed six reasons on the Board’s
decisions lacking substantial evidence. App. 333a339a.
However, the Federal Circuit affirmed the
Board’s decisions rejecting all claims on the ground
of operability by applying a “heightened standard”
not found in the statutes nor any case decided by this
Court (App. 23a).
The Federal Circuit stated that “[t]he Board
did not err in requiring Hu to establish the
operability of his asserted discoveries, in view of the
conflict with ordinary experience as well as with
established scientific principles”, citing Process
Control Corp. v. HydReclaim Corp., 190 F.3d 1350,
1359 (Fed. Cir. 1999); Newman v. Quigg,; 877 F.2d
1575 (Fed. Cir. 1989); In re Swartz, 50 F. Appx 422,
424-25 (Fed. Cir. 2002). App. 23a.
Citing Hamlet in a footnote that ”[t]here are
more things in heaven and earth, Horatio, Than are
dreamt of in your philosophy" (App. 23a-24a), the
Federal Circuit held thatThe PTO, as the nation’s guardian of
technologic invention, must be receptive to
unusual concepts, for the core of invention is
unobviousness[;] [hlowever, concepts that
strain scientific principles are properly held
to a heightened standard, typically measured

30
by reproducibility of results!;] Were the
Board was presented with an apparent
departure
from conventional
scientific
understanding, and the Board appropriately
sustained the examiners’ requirements for
experimental verification... [slhould further
investigation bring peer recognition and
verifiable results, the PTO and the scientific
community would surely be interested.
The Federal Circuit also affirmed without
discussion that the apparatus claims in the ‘739
application is directed to the judicial exception of a
natural phenomenon. App. a24.

REASONS FOR GRANTING THE PETITION
I. The varied standards of the PTO, buttressed by
the decisional laws of the lower reviewing courts, for
determining operability under § 101 are biased
against groundbreaking inventions or discoveries,
thus hindering the promotion of the “Progress of
Science and Useful Arts” emanating from the IP
Clause
In Bilski v. Kappos, this Court explained that
the IP Clause empowered Congress "to pass a series
of patent laws..., as a means of encouraging
innovation". 130 S. Ct. 3218, 3236 (2010). In Eldred
v. Ashcroft, this Court observed that “in the patent
context,...the ultimate purpose of promoting the
‘Progress of Science and useful Arts’ should be served
by the patent law. 537 U.S. 186, 223 (2003). In
Motion Picture Patents Co. v. Universal Film Mfg.
Cothis Court noted that "the primary purpose of

31
our patent laws ... is ’to promote the progress of
science and useful arts' ". 243 U.S. 502, 511 (1917).
Therefore, the promotion of the “Progress of
Science and Useful Arts” emanating from the IP
Clause is the overarching goal of the patent system.
See, Sean B. Seymore, Patently Impossible, 64
Vanderbilt Law Review 1489, 1540 (2011).
Prior to the mid-20th century, a de minimis
utility standard applied to almost all inventions.
Sean B. Seymore, The Research Patent, 74
Vanderbilt Law Review 143, 150 (2021). However,
since that time, the utility threshold is technologyspecific—de minimis for some inventions but more
stringent for others. Id. at 145. “For example,
mechanical and electrical inventions almost never
face utility hurdles, [b]ut the opposite is true for
chemical inventions...” (citations omitted). Id.
The varied standards of the PTO for
determining operability under § 101, buttressed by
the decisional law of the lower reviewing courts, are
embodied in MPEP § 2107 (App. 100a_114a):
2107.01 General Principles Governing Utility
Rejections
An invention that is "inoperative"
(i.e., it does not operate to produce the
results claimed by the patent applicant)
is not a "useful" invention in the meaning
of the patent law.

32
2107.02 Procedural Considerations Related
to Rejections for Lack of Utility
In most cases, an applicant’s
assertion of utility creates a presumption
of utility that will be sufficient...
One situation where an assertion
of utility would not be considered credible
is where a person of ordinary skill would
consider the assertion to be "incredible in
view of contemporary knowledge" and
where nothing offered by the applicant
would counter what contemporary
knowledge might otherwise suggest...
In appropriate situations the
Office may require an applicant to
substantiate an asserted utility for a
claimed invention.
There is no predetermined amount
or character of evidence that must be
provided by an applicant to support an
asserted utility,... the character and
amount of evidence needed to support an
asserted utility will vary depending on
what is claimed...and whether the
asserted utility appears to contravene
principles
scientific
established
...[;]...furthermore, the applicant does
not have to provide evidence sufficient to
establish that an asserted utility is true
"beyond a reasonable doubt”[;]...[n]or
must an applicant provide evidence such
that it establishes an asserted utility as a

33

matter of statistical certainty!;]...
[{Instead, evidence will be sufficient if,
considered as a whole, it leads a person of
ordinary skill in the art to conclude that
the asserted utility is more likely than
not true.
In this case, the Federal Circuit held that
“concepts that strain scientific principles are
properly held to a heightened standard, typically
measured by reproducibility of results[;]...[slhould
further investigation bring peer recognition and
verifiable results, the PTO and the scientific
community would surely be interested.” App. 23a*
24a.
By applying the heightened standard of
requiring reproducibility of results, through
independent verification and peer recognition, in
order to have PTO’s interests, the Federal Circuit in
this case has effectively raised the standard of proof
on operability under § 101 from “more likely than not
true” in MPEP § 2107 to “beyond a reasonable doubt”
or “as a matter of statistical certainty” not required
by MPEP §2107.
In Sean B. Seymore, Patently Impossible, 64
Vanderbilt Law Review 1489 (2011), the author
summarizes the current jurisprudence on operability
under § 101 as followsThe quest to achieve the impossible
fuels creativity, spawns new fields of inquiry,
illuminates old ones, and extends the
frontiers of knowledge. It is difficult,

34
however, to obtain a patent for an invention
which seems impossible, incredible, or
conflicts with well-established scientific
principles. The principal patentability hurdle
is operability, which an inventor cannot
overcome if there is reason to doubt that the
invention can really achieve the intended
result. Despite its laudable gatekeeping role,
[the author] identifies two problems with the
law of operability. First, though objective in
theory, the operability analysis rests on
subjective credibility assessments. These
credibility assessments can introduce a bias
toward unpatentability, with inventions
emerging from new, poorly understood, and
paradigm-shifting technologies as well as
those from fields with a poor track record of
success as the most vulnerable. Second, what
happens when the impossible becomes
possible? History reveals that the Patent
Office and the courts will continue to deny
patents for a long time thereafter. [The
author] argues that the mishandling of
seemingly impossible inventions vitiates the
presumption of patentability, prevents the
patent system from sitting at the cutting
edge of technology, and frustrates the patent
system's overarching goal to promote
scientific and technological progress.
Id. at 1489. The author gives examples of patently
impossible inventions later becoming possible, Id. at
1514-21.

35
The author suggests that the gatekeeper
function of the PTO should not be accomplished by
operability requirement under § 101 but other means
which do not hinder the promotion of the “Progress of
Science and Useful Arts”, the overarching goal of the
patent system. Id. at 1489. The author proposes the
following solutions[A] more robust enforcement of patent
law’s enablement requirement can and
should perform the gatekeeping role because
it can resolve whether an invention works by
weighing objective, technical factors. This
approach would quickly reveal technical
merit for inventions that really work or,
alternatively, the fatal flaw for inventions
that are truly impossible. Its implementation
would not only eliminate the need for the
operability requirement, but it would also
streamline patent examination, improve the
disclosure function of the patent system,
promote scientific and technological progress,
and ultimately foster innovation.
Id..
Surprisingly,
this Court had scarcely
considered the threshold question of operability
under § 101 since the Patent Act of 1790. This
situation might have been due to the reason that the
patent applicants had not mount a meaningful
challenge in this Court. But not being meaningful
challenged in or reviewed by this Court does not
means that the question of operability under § 101 is
unimportant or the actions of the PTO as the
gatekeeper and the decisional law of the lower

36
reviewing courts have been correct, just or
constitutional since the Patent Act of 1790,
especially, in this age of rapidly advancing sciences
and technologies.
Petitioners respectfully submit that the varied
standards of the PTO for determining operability
under § 101 (App. 110a-114a), from “presumption of
utility” (App. 103a) to varied “character and amount
of evidence needed to support an asserted utility...
depending on what is claimed” (App. 113a),
buttressed by the decisional laws of the lower
reviewing courts, are biased towards conventional
inventions but against groundbreaking inventions or
discoveries, thus hindering the promotion of the
“Progress of Science and Useful Arts” emanating
from the IP Clause.

II. The Federal Circuit’s application of a "heightened
standard” of operability under § 101, “typically
measured by reproducibility of results” through
independent verification and peer recognitions
effectively raises the standard of proof on operability
from “more likely than not true” to “beyond a
reasonable doubt” or “as a matter of statistical
certainty”
In Herman v. Huddleston, this Court held that
“[i]f they prove that it is more likely than not..., they
should recovert;] [w]e therefore decline to depart
from the preponderance-of-the-evidence standard
generally applicable in civil actions”. 459 U.S. 375,
390 (1983).

37
MPEP § 2107.02 III (App. 105a) states the
evidentiary standard as followsThe evidentiary standard to be used
throughout ex parte examination in setting
forth a rejection is a preponderance of the
totality of the evidence under consideration.”
In re Oetiker, 977 F.2d 1443, 1445, 24
USPQ2d 1443, 1444 (Fed. Cir. 1992) ("After
evidence or argument is submitted by the
applicant in response, patentability is
determined on the totality of the record, by a
preponderance of evidence with due
persuasiveness
of
to
consideration
argument."); In re Corkill\ 771 F.2d 1496,
1500, 226 USPQ 1005, 1008 (Fed. Cir. 1985).
A preponderance of the evidence exists when
it suggests that it is more likely than not that
the
assertion in
question
is true.
Hermanv.Huddleston, 459 U.S. 375, 390
(1983).
Further, in Brooktree Corp. v. Advanced Micro
Devices, Inc., the Federal Circuit held that “[t]o
violate [§] 101 the claimed device must be totally
incapable of achieving a useful result.” 977 F.2d
1555, 1571 (Fed. Cir. 1992). See also E.I. du Pont De
Nemours and Co. v. Berkley and Co., 620 F.2d 1247,
1260 n.17 (8th Cir. 1980) (“A small degree of utility is
sufficient . . . The claimed invention must only be
capable of performing some beneficial function ... In
short, the defense of non-utility cannot be sustained
without proof of total incapacity”).

38

In this case, the Federal Circuit noted the
following:
In three of the four applications no
references were cited; in the ’739 application
the examiner rejected claims ...under §
102(b) as anticipated by a reference of
Kiontke.
Hu provided twenty-five scientific
publications by physicists
concerning
quantum entanglement, and five publications
authored by [the Petitioners] concerning
observations such as those set forth in their
patent applications. Hu states that the
examiners and the Board “resort [ed] to
speculation, unfounded assumptions or
hindsight reconstruction” ...[and] physicists
knowledgeable in the science of quantum
mechanics would understand the principles
of quantum entanglement, although the PTO
examiners and the Board did not.
An examiner informed the Board that
“the concept of quantum entanglement per se
is not being disputed!;]” ’996 Application,
...[t]he examiners’ rejections were based on
skepticism concerning Hu’s application of
quantum entanglement to produce the effects
Hu described and claimed.
App. 18a, 22a.

39
The Federal Circuit held that “[t]he PTO, as
the nation’s guardian of technologic invention, must
be receptive to unusual concepts, for the core of
invention is unobviousness.” App. 23a.
Yet, the same court then held that “concepts
that strain scientific principles are properly held to a
heightened standard, typically measured by
reproducibility
of
results [;]... [slhould
further
investigation bring peer recognition and verifiable
results, the PTO and the scientific community would
surely be interested.” App. 23a-24a.
By applying the “heightened standard” of
requiring reproducibility of results, through
independent verification and peer recognition, in
order to have PTO’s interests, the Federal Circuit in
this case has effectively raised the standard of proof
on operability under § 101 from “more likely than not
true” in MPEP § 2107 (App. 114a) to “beyond a
reasonable doubt” or “as a matter of statistical
certainty” through independent verification and peer
recognition not required by MPEP § 2107 (App.
113a).
Further, the application of the “heightened
standard” (App. 23a) contradicts with its holding
that “[t]he PTO, as the nation’s guardian of
technologic invention, must be receptive to unusual
concepts, for the core of invention.is unobviousness”
(App. 23a).
Petitioners respectfully submit that the
Federal Circuit erred in this case by applying a
“heightened standard” of operability under § 101,
“typically measured by reproducibility of results”,

40
when claimed inventions or discoveries are
considered to contain concepts straining scientific
principles (App. 23a).
Petitioners further submit that the Federal
Circuit’s above “heightened standard” of operability
are biased against groundbreaking inventions or
discoveries including this case, thus hindering the
promotion of the “Progress of Science and Useful
Arts” emanating from the IP Clause.

III. The decisional law of the reviewing courts,
creating judicial exceptions to patent eligibility
under § 101, has no statuary basis and is
inapplicable in light of this Court’s recent decision in
Henry Schein, Inc. v. Archer & White Sales, Inc. 139
S. Ct. 524 (2019)
In Bilski v. Kappos, this Court acknowledged
that judicial exceptions to patent eligibility are
without statuary basis as follows^
The Court's precedents provide three specific
exceptions to § 101’s broad patent-eligibility
principles“laws of nature, physical
phenomena,
and
abstract
ideas.”
Chakrabarty, supra, at 309, 100 S.Ct. 2204.
While these exceptions are not required by
the statutory text, they are consistent with
the notion that a patentable process must be
“new and useful.”
561 U.S. 593, 601-02 (2010).

41
This Court also acknowledged the following:
Any suggestion in this Court’s case law that
the Patent Act's terms deviate from their
ordinary meaning has only been an
explanation for the exceptions for laws of
nature, physical phenomena, and abstract
ideas. See Parker v. Flook, 437 U.S. 584,
588-589, 98 S.Ct. 2522, 57 L.Ed.2d 451
(1978). This Court has not indicated that the
existence of these well-established exceptions
gives the Judiciary carte blanche to impose
other limitations that are inconsistent with
the text and the statute’s purpose and
design. Concerns about attempts to call any
form of human activity a “process” can be met
by making sure the claim meets the
requirements of §101.
Bilski at 603.
Further, this Court recently held that there is
no statutory authority for judicial exceptions under
the Federal Arbitration Act. Henry Schein, Inc. v.
Archer & White Sales, Inc. 139 S. Ct. 524, 528 (2019)
(“The Act does not contain a ‘wholly groundless’
exception, and we are not at liberty to rewrite the
statute passed by Congress and signed by the
President”).
In this case, the ‘739 application is a divisional
application of the ‘996 application and its claimed
invention is for an apparatus (App. 124a-127a).

42
The Board concluded that “Examiner’s
analysis ... is consistent with PTO guidance [in
MPEP § 2106] ...[;] [alccordingly, we adopt the
Examiner’s position and sustain the § 101 rejection
on the basis” of the judicial exception of a natural
phenomenon. App. a55_a58. The Board cited Alice
Corp. v. CLSBanklnt% 573 U.S. 208, 216 (2014)
(“Laws of nature, natural phenomena, and abstract
ideas” are not patentable.) App. a55.
The Federal Circuit affirmed without
discussion that the apparatus claims in the ‘739
application is directed to the judicial exception of a
natural phenomenon. App. 24a.
Two scholars have recently criticized the
creations of judicial exceptions as unconstitutional
and suggested the following constitutional
application of § 101How should the Supreme Court handle
patent eligibility issues? Literally apply the
statute and legislative history! It works quite
well. Review the proposed claimed patent
subject matter on the basis of whether it
describes anything made by man and
whether it is an invention or applied
discovery. If so, proceed to the analysis of
whether it is new and useful, and described
in a manner that allows one of ordinary skill
in that field to carry it out. Do not stray into
economic analysis or the virtues of, or
exceptions to, statutory patent eligibility or
how Congress decided to exercise its
discretion to promote the progress of science
through a limited term monopoly versus

43
third party freedom to operate, or the size of
the created monopoly—the Court was not
given that authority nor is it equipped to
address it. If the decision, faithfully applying
the statute, causes damage to an industry or
subgroup, it is up to Congress to decide
whether to fix it.
In law school, we learn that there is no
right without a remedy. In the case of
Marbury v. Madison, the U.S. Supreme Court
held that it can review the constitutionality
of federal statutes. [Marbury v. Madison, 5
U.S. 137 (1803)] However, who oversees the
constitutionality of U.S. Supreme Court
decisions? There is no private right of action
in the U.S. for this. The sole remedy is to
urge Congress to pass a law reversing the
Supreme Court position. However, why
should Congress have to pass a new law
when the current law is clear on its face, just
to say, we meant what we said the first time?
Sherry
Knowles
and
Anthony
Prosser,
Unconstitutional Application of 35 U.S.C. § 101 by
the U.S. Supreme Court, 18 J. MARSHALL REV.
INTELL. PROP. L. 144, 167-8 (2018).
Petitioners respectfully submit that the
decisional law of the reviewing courts, creating
judicial exceptions to patent eligibility under § 101,
has no statuary basis and is inapplicable in light of
this Court’s recent decision in Henry Schein, Inc. v.
Archer & White Sales, Inc. 139 S. Ct. 524 (2019).

44
IV. The PTO personnel and Federal Circuit should
not substitute common sense and common knowledge
for the specialized knowledge and expertise of a
PHOSITA in determining operability under § 101.
In Allentown Mack Sales & Service, Inc. v.
NLRB, this Court held that:
Because reasoned decisionmaking demands
it, and because the systemic consequences of
any other approach are unacceptable, the
Board must be required to apply in fact the
clearly understood legal standards that it
enunciates in principle, such as
preponderance of the Evidence!;] reviewing
courts are entitled to take those standards to
mean what they say, and to conduct
substantial-evidence review on that basis!;]
even the most consistent and hence
predictable Board departure from proper
application of those standards will not alter
the legal rule by which the agency's
factfinding is to be judged.
522 U.S. 359, 376-7 (1998).
The Federal Circuit holds that the question of
patentable utility under § lOlis a question of fact and
it reviews the Board’s factual findings for substantial
evidence. In re Fisher, 421 F.3d 1365, 1369 (Fed. Cir.
2005). Further, it is a basic requirement for
“substantial evidence” review that the Board must
produce a record which serves as the foundation for
the agency action. In re Gartside, 203 F. 3d 1314
(Fed. Cir. 2000).

45
The Federal Circuit also held that “[t]he
‘common knowledge and common sense’ on which the
Board relied in rejecting [applicant]'s application are
not the specialized knowledge and expertise
contemplated by the Administrative Procedure Act.”
In Re Sang-su Lee, 277 F.3d 1338 (Fed. Cir. 2002).
In this case, the Federal Circuit noted that:
[i]n three of the four applications no
references were cited; in the ’739 application
the examiner rejected claims ...under §
102(b) as anticipated by a reference of
Kiontkeb] Hu provided twenty-five scientific
publications
by
physicists
concerning
quantum entanglement, and five publications
authored by [the Petitioners] concerning
observations such as those set forth in their
patent applications.”
App. 18a, 22a.
Further, the records in this show that the
examiners and the Board relied on their own
common sense and common knowledge of “the
absence of any known scientific principles explaining
how [Hu]’s invention could possibly operate in this
manner” (App. 34a, 72a, 92a) despite of the wellknown scientific principle of quantum entanglement
(App. 145a-146a, 220a-221a) and Hu’s realizations
(App. 147a-148a, 222a-223a) based on this principle
as repeatedly pointed out by Hu.
However, the Federal Circuit held that “[t]he
Board did not err in requiring Hu to establish the
operability of his asserted discoveries, in view of the

46
conflict with ordinary experience as well as with
established
scientific principles”
(App.
23a)
(emphasis added).
Petitioners respectfully submit that the PTO
personnel and Federal Circuit should not substitute
common sense and common knowledge for the
specialized knowledge and expertise of a PHOSITA
in determining operability under § 101.
In rejecting a claim as unpatentable, the PTO
is bound by the statutory requirements of 35 U.S.C.
§132 and 5 U.S.C. §706(2)(A)-(D). See In re Kahn,
441 F. 3d 977, 987-988 (Fed. Cir 2006) (articulated
reasoning and rational underpinning “much rooted”
in the Administrative Procedure Act, to ensure due
process and non-arbitrary decision making). It has
long been clear that the PTO “may not, because it
may doubt that the invention is patentable, resort to
speculation, unfounded assumptions or hindsight
reconstruction to supply deficiencies in its factual
basis. . . we may not resolve doubts in favor of the
[PTO] determination where there are deficiencies in
the record as to the necessary factual basis
supporting its legal conclusion.” In re Warner, 379 F.
2d .1011, 1017 (C.C.P.A. 1967). That prohibition
should be equally clear for lack of utility rejection as
for any other rejection.
It was not possible for the examiners and the
Board to conduct a valid operability analysis under §
101 (and other analyses) of the claimed inventions
unless they first determined the four foundational
questions stated in Petitioners’ Appeal Brief to the
Federal Circuit (App 331a_332a).

47
A reasonable fact finder would not have
arrived at the PTO’s finding of the claimed
inventions being inoperable and correct substantial
evidence standard of review by the Federal Circuit
should have arrived at the opposite result.

CONCLUSION
For these reasons, the petition for a writ of
certiorari should be granted.

Respectfully submitted,

Huping Hu, PhD, JD, Pro Se

Maoxin Wu, MD, PhD, Pro Se
25 Lubber Street
Stony Brook, NY 11790
(631) 678-1864
hupinghu@quantumbrain.org
maoxinwu@quantumbrain.org

August 10, 2021

